HHS/OIG, Audit - "Review of High-Dollar Payments for Delaware Medicare
Part B Claims Processed by TrailBlazer Health Enterprises for the Period January
1, 2003, Through December 31, 2005," (A-03-07-00018)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for Delaware Medicare Part B Claims Processed by TrailBlazer Health Enterprises
for the Period January 1, 2003, Through December 31, 2005," (A-03-07-00018)
June 19, 2008
Complete
Text of Report is available in PDF format (177 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
TrailBlazer Health Enterprises (TrailBlazer) overpaid providers $40,000 for
two of the three high-dollar payments ($10,000 or more) for calendar years (CY)
2003-05.  The remaining payment was appropriate. TrailBlazer, the Medicare
Part B carrier for Delaware, processed three high-dollar payments during the
audit period.  Providers refunded the two overpayments prior to our
fieldwork.
We recommended that TrailBlazer consider identifying and recovering any
additional overpayments made to providers for high-dollar Part B claims paid
after CY 2005.  TrailBlazer stated that it had implemented multiple internal
controls since 2003, including the addition of an edit to review high-dollar
Part B claim in June 2005.  However, because it does not receive funding to do
so, it would not identify and recover any additional overpayments for
high-dollar Part B claims paid after CY 2005.